<html>
<title> - MARKUP OF A SUPPLEMENTAL FUNDING RESOLUTION OF ORIGINAL JURISDICTION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









  MARKUP OF A SUPPLEMENTAL FUNDING RESOLUTION OF ORIGINAL JURISDICTION

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 16, 2016

                               __________

      Printed for the use of the Committee on House Administration



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-709 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
   
   
   
      
   
                   COMMITTEE ON HOUSE ADMINISTRATION

                        CANDICE S. MILLER, Michigan, 
                              Chairman

ROBERT A. BRADY, Pennsylvania        GREGG HARPER, Mississippi
  Ranking Minority Member            RICHARD NUGENT, Florida
ZOE LOFGREN, California              RODNEY DAVIS, Illinois
JUAN VARGAS, California              BARBARA COMSTOCK, Virginia
                                     MARK WALKER, North Carolina

                           Professional Staff

                        Sean Moran, Staff Director
                         Jamie Fleet, Minority Staff 
             Director

 
  MARKUP OF A SUPPLEMENTAL FUNDING RESOLUTION OF ORIGINAL JURISDICTION

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2016

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 4:42 p.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Walker, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; Katie Patru, 
Deputy Staff Director; Bob Sensenbrenner, General Counsel; Erin 
McCracken, Communications Director; C. Maggie Moore, 
Legislative Clerk; Tim Sullivan, Staff Assistant; Jamie Fleet, 
Minority Staff Director; Matt Pinkus, Minority Senior Policy 
Advisor; Khalil Abboud, Minority Deputy Staff Director/Director 
of Legislative Operations; Mike Harrison, Minority Chief 
Counsel; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee markup. A quorum is 
present, so we may proceed.
    The meeting record will remain open for 5 legislative days 
so that Members may submit any materials that they wish to be 
included therein.
    And today we will consider only one item on our agenda, a 
resolution of original jurisdiction that authorizes additional 
funds for the Committee on Energy and Commerce's budget for the 
remainder of the 114th Congress.
    Last year on October the 7th, the House created a Select 
Investigative Panel on Infant Lives within the Committee on 
Energy and Commerce, and while everybody wasn't in favor of 
this panel, it was passed by a majority vote of the House.
    This Committee's responsibility is to ensure that each 
committee has sufficient resources to fulfill their assigned 
oversight duties. Last year, our Committee transferred funds 
from the Committee Reserve Account to the Energy and Commerce 
Committee so the panel could begin its work. An additional 
transfer was made earlier this year. These funds were allocated 
based on the full Committee's needs to fulfill its mission.
    These initial transfers were insufficient to cover the 
costs associated with the Select Panel. The matter before us 
today will rectify this situation and allow the Committee on 
Energy and Commerce and the Select Investigative Panel to 
continue to operate until the end of this Congress.
    This markup is an institutional responsibility. Actually, 
if we don't allocate these additional funds, the work of the 
entire Committee on Energy and Commerce, both for the majority 
staff and the minority staff, would be negatively impacted. 
That is for certain. The Committee would be unable to complete 
its work. This work covers important areas such as electronic 
communications, environmental protection, and health care.
    We certainly had differences of opinion on the creation of 
this Select Investigative Panel. However, we are not here to 
relitigate a decision that the House has made more than a year 
ago, but we are here to fulfill our institutional 
responsibilities. So it is my hope that we send this resolution 
swiftly to the floor for a vote.
    I would now like to recognize my colleague and the 
Committee's Ranking Member, Mr. Brady, for the purpose of an 
opening statement.
    Mr. Brady. Thank you, Madam Chairman.
    Madam Chairman, I oppose the funding resolution before us 
today. I will have a longer statement for the record, but let 
me briefly say that 3 House committees, 12 States, and 1 grand 
jury have already investigated the matter this panel was 
created to examine. None found evidence of wrongdoing. And yet, 
if we pass this measure, we will have wasted over $1.5 million 
in taxpayers' money on this redundant and unnecessary exercise.
    I am troubled by the treatment of the minority Members of 
the Committee. It is my understanding that the majority has 
misused unilaterally subpoena authority, with the Chair issuing 
42 unilateral subpoenas without consulting with the Democrats. 
At best, this is a violation of the longstanding House rules 
and practice. At worst, it violates the bipartisan spirit of 
cooperation the American people expect from their Congress. I 
understand that Democrats have been denied access to the panel 
records, including documents that have then later been used in 
hearings and depositions.
    It is time for the Panel to end conducting this unnecessary 
and expensive work.
    Thank you again, Madam Chairman.
    [Prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T4709A.001
    
    [GRAPHIC] [TIFF OMITTED] T4709A.002
    
    The Chairman. I thank the gentleman very much.
    Are there any other Members of the Committee that wish to 
be recognized for purpose of providing an opening statement?
    The Chair lays before the Committee at this time a 
resolution of original jurisdiction providing for the further 
expenses of the Committee on Energy and Commerce in the amount 
of $800,000. And, without objection, the resolution is 
considered read and open for amendment.
    [The resolution follows:]
    [GRAPHIC] [TIFF OMITTED] T4709A.003
    
    [GRAPHIC] [TIFF OMITTED] T4709A.004
    
    The Chairman. Would any Member like to offer an amendment?
    Mr. Brady. Madam Chairman, I offer an amendment to the 
resolution.
    [The amendment of Mr. Brady follows:]
    [GRAPHIC] [TIFF OMITTED] T4709A.005
    
    [GRAPHIC] [TIFF OMITTED] T4709A.006
    
    The Chairman. The gentleman is recognized.
    Mr. Brady. Madam Chairman, this amendment is about making 
sure the minority on the Committee is treated fairly and that 
the Select Panel finishes its work.
    The amendment also requires the Panel to provide House 
Administration with weekly reports on its the expenditures as 
well as any activities of the Subcommittee, including the 
issuance of subpoenas.
    Further, the amendment requires the majority to provide 
notice to and consult with the Ranking Member of the Panel in 
advance of the issuing of any subpoenas if it is to use any of 
its supplementary funds for that purpose.
    It is unfortunate that we must force the majority to 
cooperate with the minority, but actions speak louder than 
words, and that is why I offer this amendment and urge its 
adoption.
    And thank you again, Madam Chair.
    The Chairman. I thank the gentleman.
    Do any other Members wish to be recognized to speak on this 
amendment?
    If there are no more comments, we will vote on the 
gentleman's amendment. The question is on the amendment offered 
by the gentleman, the Ranking Member, to the resolution.
    Those in favor of the amendment would signify by saying 
aye.
    All opposed, signify by saying nay.
    In the opinion of the Chair, the nays have it, and the 
amendment is not agreed to.
    Are there any other amendments?
    If not, then I move that the Committee favorably report the 
resolution of original jurisdiction to the House.
    And all those in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it. The ayes 
have it, and the motion is agreed to.
    Without objection, a motion to reconsider is laid upon the 
table.
    Does any Member wish to file supplemental, minority, or 
additional views for inclusion in the Committee Report to the 
House?
    Mr. Brady. Madam Chair, I announce that the Democratic 
Members will request the 2 additional calendar days provided by 
clause 2(l) of Rule XI of the Rules of the House in order to 
file views.
    The Chairman. Pursuant to clause 2 of Rule XI, a Member is 
entitled to 2 additional calendar days to file such views in 
writing and signed by that Member with the Clerk of the 
Committee.
    Any other business before the Committee?
    Mr. Brady. Madam Chair, before we adjourn, it is 
bittersweet that I will not be able to sit next to you again 
unless I take a visit----
    The Chairman. Come to Michigan.
    Mr. Brady [continuing]. To Michigan, which I wouldn't mind 
doing.
    But it is an absolute pleasure to be working as your 
Minority Chair. You have been extremely gracious, respectful, 
and, without question, one of the classiest ladies that I know 
in the House of Representatives. And you will be surely missed 
by this House and by me.
    And, Madam Chair, whether I am out of order or not, I am 
giving you a kiss.
    The Chairman. Thank you. I can't tell you how much I 
appreciate those comments. I sincerely appreciate it, sincerely 
appreciate it.
    And it has been my privilege and honor to be the 
Chairperson of this Committee during the last couple of 
Congresses and working with a fantastic Committee and a 
fantastic staff, and that is both on the majority and the 
minority side.
    And, certainly, working alongside, shoulder to shoulder, 
with you as my Ranking Member, we have done a lot of good work 
for this institution. We have hardly had disagreement on very 
many issues, actually. I think we have all just tried to work 
together and make sure that our committees are properly 
resourced, that this institution operates to the best of our 
ability.
    And it has been my pleasure to serve with you, as well. So 
if you don't come to Michigan, I might look you up in Philly, 
right?
    Mr. Brady. You can come to Philadelphia.
    The Chairman. I may do that.
    At any rate, I really have enjoyed being the Chairman of 
this Committee. It has just been fantastic. So I will look 
forward to the next Chairman doing some really fantastic work 
on this Committee. We will see what happens. But, at any rate, 
I am a Michigan girl. It is time for me to go back home. So I 
certainly have enjoyed it.
    And, without objection, the meeting is adjourned. Thank 
you.
    [Whereupon, at 4:49 p.m., the Committee was adjourned.]

                               [all]

</pre></body></html>
